      VALUE ENGINEERING IN
THE FEDERAL-AID HIGHWAY PROGRAM

      Federal Highway Administration


       Report Number: MH-2007-040
       Date Issued: March 28, 2007
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on                                          Date:    March 28, 2007
           Value Engineering in the
           Federal-Aid Highway Program
           Report No. MH-2007-040


  From:    Kurt Hyde                                               Reply to
                                                                   Attn. of:   JA-40
           Assistant Inspector General
            for Surface and Maritime Programs

    To:    Federal Highway Administrator

           This report presents the results of our audit of the Federal Highway
           Administration’s (FHWA) oversight of value engineering (VE) in the Federal-aid
           highway program and the effectiveness of the states’ respective VE processes. VE
           is the systematic process of review and analysis of a project, during the concept
           and design phases, by a multi-disciplined team of persons not involved in the
           project. The analysis is documented in a report that contains recommendations
           for: (a) delivering the project safely, reliably, and at the lowest overall cost;
           (b) improving the value and quality of the project; and (c) reducing the time to
           complete the project. The National Highway System Designation Act of 1995 (the
           1995 Act), requires states to perform value engineering analysis for all Federal-aid
           highway projects on the National Highway System (NHS) with an estimated cost
           of $25 million or more. In implementing the 1995 Act, FHWA enacted a
           provision that provides for states to be reimbursed for the cost of conducting value
           engineering studies for projects under the Federal-aid program.

           Over the years, value engineering has evolved into a management tool that can be
           used alone or with other management techniques to improve operations and
           project quality and reduce project costs, by streamlining operations and
           implementing cost saving recommendations. It can also increase the use of
           environmentally sound and energy efficient practices and materials. Nationally,
           state departments of transportation have realized substantial savings by using
           value engineering.
Our objectives were to determine whether FHWA’s oversight is adequate to
ensure that: (1) value engineering studies are performed on all Federal-aid NHS
projects that have an estimated cost of $25 million or more, (2) value engineering
studies are performed on all Federal-aid projects that have a high potential for cost
savings, and (3) all value engineering recommendations that can be implemented
are approved, permitting the greatest degree of potential savings to be achieved.
We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States, except for standard 7.57, Data Gathered by Management.

The conditions identified in this report are based on our review of FHWA
documents and state documents (for example, Connecticut’s VE studies and
interviews with the FHWA VE coordinator) and state highway officials (such as
Washington State’s Secretary of Transportation). Our estimates of savings lost are
based on FHWA’s official data for fiscal year (FY) 2001 through FY 2004. The
FHWA data are the only nationwide data available on the subject, and are widely
used and accepted by outside experts and policymakers. FHWA uses this
information to compile its Annual Federal-Aid Value Engineering Summary
Report, which is submitted to the Secretary and the Office of Management and
Budget (OMB). The Transportation Research Board (TRB) used the same data in
its assessment of state value engineering programs. We validated the data for the
10 states we visited and deemed it sufficiently reliable for use in this report. We
also performed such tests as we considered necessary to detect fraud, waste, and
abuse. Additional details of our objectives, scope, and methodology are in
Exhibit A.

Congress first sought to apply value engineering to highway projects in the late
1960s, at a time when the highway network was being significantly expanded.
The Federal-aid Highway Act of 1970 reflected this growing interest with a
provision requiring that value engineering or other cost reduction analyses be
performed on any Federal-aid highway project and that states certify and report to
the Secretary that design alternatives were considered in a public forum.
Provisions in the Code of Federal Regulations (CFR) part 23, section 627.1,
required states to establish a program to improve project quality, reduce project
costs, foster innovation, eliminate unnecessary and costly design elements, and
ensure efficient investments by requiring the application of value engineering.
OMB Circular A-131 (May 1993 update) requires all Federal agencies to use value
engineering, where appropriate, to reduce program and acquisition costs and to
report to OMB each fiscal year on the results of value engineering. Section
303(b)(f)(1) of Public Law 104-59, the National Highway System Designation Act
of 1995, provides, “The Secretary shall establish a program to require States to
carry out a value engineering analysis for all projects on the NHS with an



                                         ii
estimated total cost of $25,000,000 or more.”1 The 23 CFR Part 627.1(a) codified
this provision requiring “the application of value engineering to all Federal-aid
highway projects on the NHS with an estimated cost of $25 million or more.”

Each year, FHWA awards more than $30 billion to states through Federal-aid
grants. In each of our annual Top Management Challenges reports from 2003
through 2006,2 we have pointed to the need for FHWA to make improvements in
the area of grants management. Ensuring that states have effective value
engineering programs in place is a component of grants management. In addition,
savings generated by implementing value engineering recommendations reduce
states’ project costs. Savings realized by implementing value engineering
recommendations on Federal-aid projects are not returned to FHWA, thereby
allowing states to reapply the Federal share of these savings (which is generally
80 percent) to other needed projects, such as repairing structurally deficient
bridges, improving existing roadways, or constructing new bridges or roadways.
In an age when Highway Trust Fund revenues are not keeping pace with state
infrastructure needs, more effective value engineering programs will enable states
to do more with available Federal funds.

RESULTS IN BRIEF
Value engineering provides a substantial opportunity for states to obtain the most
value from Federal-aid funds by achieving savings on planned construction
projects. Furthermore, it has the potential to serve as a key tool in FHWA’s
stewardship of Federal funds. Historically, states have saved an average of
5 percent3 of estimated project costs by performing value engineering studies and
accepting resulting recommendations. From FY 2001 through FY 2004, states
collectively reported $4.2 billion in recommended savings (about $1 billion
annually). During the same 4-year period, we estimate that conducting required
NHS value engineering studies and high-potential non-NHS value engineering
studies, and accepting more recommendations, could have saved an estimated
$725 million in Federal funds.4 (See Table 1 on the next page.) Had these savings
been achieved, additional planned projects could have been started.
1
    In 2005, the Safe Accountable Flexible Efficient Transportation Equity Act: A Legacy for Users, PL 109-59,
    lowered the threshold for requiring value engineering studies on bridge projects to $20 million. Because we
    reviewed states for the period of FY 2001 through FY 2004, this did not affect our conclusions.
2
    The Office of Inspector General annual reports on the United States DOT Top Management Challenges can be found
    on our website: www.oig.dot.gov.
3
    To calculate our estimate that 5 percent of estimated project costs could be saved from performing required VE
    studies, we analyzed FHWA’s Annual Federal-Aid Value Engineering Summary Report(s) from FY 2001 through
    FY 2004. Our calculation was corroborated by the Transportation Research Board’s December 2005 National
    Cooperative Highway Research Program’s Synthesis 352.
4
    The Federal participation rate of most Federal-aid projects is generally 80 percent, while projects such as Federal
    Lands and Emergency Relief can go as high as 100 percent, with states or other allowable sources being responsible
    for the balance. To conservatively calculate the Federal share of the potential savings lost, we used 80 percent of the
    $906 million in estimated savings, which is approximately $725 million.



                                                            iii
      To assess FHWA’s oversight of the value engineering program, we judgmentally
      selected and visited 10 states.5 We selected these states because they possessed
      attributes such as not reporting any value engineering studies, approving low or
      high percentages of recommendations, or receiving large amounts of Federal-aid
      dollars. Based on our work in these states, we concluded that for state value
      engineering programs, FHWA provided limited oversight, such as facilitating
      states’ use of value engineering and identifying and disseminating states’ best
      practices.

      We also engaged the assistance of the U.S. Army Corps of Engineers (the Corps),
      under the direction of the Office of Inspector General (OIG) Engineer Advisor, to
      review and assess the appropriateness and adequacy of North Carolina and
      Michigan’s value engineering programs, processes, and studies and their
      compliance with FHWA policy. These states were selected because they had
      approved a low percentage of recommendations.

                                     Table 1. Summary of Estimated Savings Lost
                                                            (FY 2001-FY 2004)
                                                                                           Estimated Savings Lost
                         Area of Improvement                                                                   *
                                                                                               ($ in millions)
Performing Value Engineering Studies
   ¾ 39 NHS Projects (in 7 states)--$98.4 million
   ¾ 9 Non-NHS Projects** that OIG identified as                                                      $117
       having a high potential of cost savings (in 3
                           ***
       states)--$19 million
Approval of Value Engineering Recommendations to
 achieve the 44.4 percent national average in all states                                              $789
 (in 28 states)
Total                                                                                                 $906
Federal Share                                                                                         $725
Source: These savings were computed using FHWA’s data and a calculation methodology developed in conjunction with the
OIG Statistician.
*
      See Scope and Methodology section of Exhibit A for information on how the estimates were calculated.
**
       With respect to Federal-aid projects not on the NHS or NHS projects with estimated costs less than $25
      million, 23 U.S.C. 106(e) states, “For such projects as the Secretary determines advisable, plans, specifications,
      and estimates for proposed projects on any Federal-aid highway shall be accompanied by a value engineering
      analysis or other cost reduction analysis.”
***
      VE studies were not required per Federal Regulations, but we chose to include these projects because of the
      potential savings.

      5
          There are 52 Division Offices: the 50 states, the District of Columbia, and Puerto Rico. For purposes of this report,
          we refer to the District of Columbia as a “state.”




                                                                  iv
Seven of Ten States Reviewed Missed Opportunities to Achieve
Significant Savings by Not Performing Required Value Engineering
Studies
Section 303(b)(f)(1) of Public Law 104-59, the National Highway System
Designation Act of 1995, provides, “The Secretary shall establish a program to
require States to carry out a value engineering analysis for all projects on the NHS
with an estimated total cost of $25,000,000 or more.”6 Regulations in 23 CFR
Part 627.1(a) codified this provision requiring “the application of value
engineering to all Federal-aid highway projects on the NHS with an estimated cost
of $25 million or more.” Neither Federal law nor regulations allow exceptions to
these requirements, and FHWA is not allowed to grant waivers.

FHWA’s Policy Guide states, “The FHWA will assure that a VE study is
performed on all Federal-aid funded NHS projects with an estimated cost
(includes design, right-of-way, and construction costs) of $25 million or more, and
on other Federal-aid projects where its employment has high potential for cost
savings.” For purposes of our analysis, we considered all non-NHS Federal-aid
projects with an estimated cost exceeding $25 million to have a high potential for
cost savings.7 We assessed the use of value engineering on 314 NHS projects in
10 states for the period FY 2001 through FY 2004 and found that the application
of value engineering varied across those states. Of the 10 states, 3 (Massachusetts,
Washington, and Wisconsin) performed value engineering studies on all
25 projects that met the $25 million threshold.

In contrast, the remaining seven states (California, Connecticut, Michigan, New
Jersey, North Carolina, Texas, and the District of Columbia) did not perform
required value engineering studies on 39 of the 289 projects (13 percent) that met
the threshold. If the seven states had performed the required studies for the
39 projects, collectively valued at $2.0 billion, and achieved the 5-percent national
average savings,8 we estimate they could have saved an additional $98.4 million
($24.6 million annually) and reprogrammed the savings to other projects. For
example:

    • North Carolina DOT (NCDOT) officials did not perform required value
      engineering studies on five design-build projects valued at $435 million even
      though they acknowledged that design-build projects are not exempt from the
      Federal requirement to conduct value engineering studies. If these studies
6
    In 2005, the Safe Accountable Flexible Efficient Transportation Equity Act: A Legacy for Users, PL 109-59,
    lowered the threshold for requiring value engineering studies on bridge projects to $20 million. Because we
    reviewed states for the period of FY 2001 through FY 2004, this did not affect our conclusions.
7
    We considered non-NHS Federal-aid projects with an estimated cost exceeding $25 million to have a high potential
    for cost savings. According to FHWA, some projects with estimated costs below $25 million could also have a high
    potential for cost savings, while other projects exceeding $25 million, such as repaving existing roadways, may not.
8
    The 5-percent savings average is computed by dividing the value of approved recommendations by the estimated
    cost of projects for which value engineering studies were performed for FY 2001 through FY 2004.



                                                           v
         had been performed and had produced the national 5-percent average
         savings, North Carolina could have saved and reprogrammed an estimated
         $21.7 million.

     • The Texas and California state DOT central offices delegated the
       responsibility for ensuring performance of value engineering studies to the
       district levels. However, the central offices did not follow up to ensure that
       the districts performed the studies. Consequently, between these two states,
       27 additional studies should have been performed. If these studies had been
       performed and had produced the national 5-percent average savings, these
       states collectively could have saved an estimated $62.7 million.

Further, our audit showed that value engineering studies were not conducted on
nine additional Federal-aid projects in the District of Columbia, North Carolina,
and Texas that are not on the NHS, all with estimated costs exceeding $25 million.
By not performing these value engineering studies, the three states collectively lost
the opportunity to save an additional estimated $19 million, had the studies
produced the national 5-percent average savings. We estimate that if these NHS
and non-NHS Federal-aid highway projects had undergone the required value
engineering studies, the remaining seven states in our sample could have saved an
additional $117 million.

Value Engineering Recommendations That Were Not Implemented
Resulted in Additional Missed Opportunities for Significant Savings
For those projects on which value engineering studies were performed, states did
not approve many of the resulting recommendations. From FY 2001 through
FY 2004, 5 of the 10 states we visited (Connecticut, North Carolina, California,
Michigan, and Wisconsin) collectively approved 23 percent of the proposed
recommendations, which contrasts with the nationwide approval average of
44.4 percent.9 We calculated that had those five states achieved the 44.4 percent
national average, and saved the national average of $1.18 million on each accepted
recommendation,10 an additional estimated $381 million (a combined Federal
share of approximately $305 million) could have been saved and reprogrammed to
other qualifying projects.

During the same FY 2001 through FY 2004 time period, 23 states that were not in
our judgmental sample of states visited, did not meet the 44.4 percent national
average. We calculated that, if those states had achieved this national average, an
9
     Our 44.4 percent average estimate of value engineering recommendations is based on our analysis of FHWA’s
     Annual Federal-Aid Value Engineering Summary Report(s) from FY 2001 through FY 2004. Our calculation was
     corroborated by the Transportation Research Board’s December 2005 National Cooperative Highway Research
     Program’s Synthesis 352.
10
     The national average of $1.18 million in savings includes all accepted recommendations. Value engineering
     recommendations can increase or decrease project costs.




                                                       vi
estimated additional $408 million (of which the Federal share is approximately 80
percent or $326 million) could have been saved and reprogrammed to other
qualifying Federal-aid projects. Nationally, had the 28 states (5 visited plus 23 not
visited) achieved the national average for the percentage of recommendations
implemented, we estimate they could have saved an additional $789 million (about
$197 million annually).

According to state DOT and FHWA officials, low acceptance rates of value
engineering recommendations occurred because: (1) state officials did not promote
to staff the fiscal benefits of using value engineering, (2) the states perceived that
value engineering studies caused unneeded project delays, and (3) value
engineering studies were performed too late in the design process to approve and
implement recommendations. States have the final decision whether to accept or
reject recommendations. However, these decisions should be documented and
available for FHWA’s review. In assessing why states did not accept
recommendations, we found that only 2 of the 10 Division Offices we visited
participated in the implementation process or required documentation justifying
the decisions for rejecting the recommendations. Without independent FHWA
review we cannot be assured that states were correct in rejecting their respective
recommendations.

FHWA’s Oversight of State Value Engineering Programs Needs To Be
Significantly Strengthened
To ensure that states use value engineering analyses throughout highway project
development, design, and construction, FHWA Division Offices should increase
their oversight and strengthen existing policies. Enhanced FHWA oversight is
needed in the areas of:
 • Limited time to develop expertise. FHWA VE coordinators stated that
   their tenures were too short (2 to 3 years) and during their tenures, they were
   responsible for other assignments. Additionally, they opined that their
   limited tenures did not allow them the time to acquire sufficient knowledge
   and training to perform as coordinators.

 • Discontinued performance measures. FHWA’s performance goal of
   increasing the use of VE and measures to achieve greater cost savings was
   discontinued in FY 2001, limiting the agency’s ability to assess the VE
   program’s effectiveness and to reveal problem areas within the program.

 • No review of internal controls over the VE program. FHWA is
   implementing two processes to assess controls and improve oversight of
   grants management—the Financial Integrity Review and Evaluation (FIRE)
   Program and its program of corporate risk assessments. However, FHWA



                                         vii
     does not specifically assess its internal controls over the VE program as part
     of either process.

FHWA Needs to Disseminate States’ Best Practices to Improve Value
Engineering
FHWA initiated a task force to improve the value engineering process and
establish new value engineering performance measures. The task force, which
first met in 2005 and comprises many stakeholders–including experts from both
FHWA and the states, could identify and disseminate best practices. FHWA has
not collected and disseminated best practices that could enhance the benefits of
value engineering studies. However, we identified a range of best practices
already being used. For example:

 • In Washington State, senior management and outside stakeholders participate
   in the value engineering process and the state has adopted the Society of
   American Value Engineers (SAVE) International’s methodology, which
   facilitates implementing the best alternatives recommended.

 • New Jersey value engineering team members are trained annually by the
   National Highway Institute. This training includes conducting a value
   engineering study on an active project. In fostering a multi-disciplinary
   approach, New Jersey offers this training to both engineers and non-
   engineers.

 • Massachusetts requires written justification for value engineering
   recommendations that are not approved and challenges questionable
   justifications for rejection.

We analyzed the effectiveness of value engineering programs in the states visited
and generally found that states with best practices ranked higher overall in key
indicators of value engineering effectiveness than states that had not adopted best
practices. Further, adopting best practices can make state value engineering
studies more cost-effective. For example, over the 4-year period, FY 2001
through FY 2004, Washington State produced a return on investment of $523 for
each $1 spent performing value engineering studies and approved 83 percent of its
recommendations, while the national average for return on investment was
$128 for each $1 spent, with a 44.4 percent recommendation approval rate. New
Jersey and Massachusetts yielded the highest percentages of project savings.
Implementing the following recommendations will help FHWA and the states
generate more savings from the value engineering process.




                                       viii
RECOMMENDATIONS
Our recommendations are summarized below.                 The complete list of
recommendations begins on page 11.

We recommend that FHWA revise its value engineering policy to:

 • Require responsible state management (for example, the chief engineer) to
   sign off on the rejection of value engineering recommendations that contain
   substantial cost savings.
 • Establish requirements for the support of cost estimates, including the
   evaluation of life-cycle cost alternatives.
 • Require the FHWA Division Offices’ value engineering coordinators to
   either monitor or participate in all state value engineering studies for Federal-
   aid projects.
To strengthen the FHWA oversight of the value engineering program and to better
monitor value engineering performance, we also recommend that FHWA:
 • Develop performance goals for measuring the effectiveness of state value
   engineering programs and for evaluating the responsible Division Office
   personnel.
 • Incorporate value engineering into either the FIRE reviews or the corporate
   risk assessment process to determine whether all required studies were
   performed and to assess how the states determine to either accept or reject
   recommendations.
 • Collect and disseminate best practices to the states’ departments of
   transportation.

SUMMARY OF MANAGEMENT COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE
On January 31, 2007, we provided FHWA a draft copy of this report. On
March 2, 2007, FHWA provided us its formal response, which is included in its
entirety in the Appendix.

In its response, FHWA fully concurred with all of our recommendations and
provided planned corrective actions that will begin as early as March 2007.
Specifically, FHWA plans to (1) revise Federal regulations by updating FHWA
policy, developing technical guidance, and producing outreach material;
(2) convene a working group to evaluate and establish performance goals and
measures to assess FHWA’s value engineering program; (3) incorporate an
assessment of state value engineering programs into the corporate risk assessment

                                        ix
program; and (4) develop value engineering technical guidance, best practices, and
outreach materials. Additionally, in discussing the results of our review, FHWA
officials accepted our calculations of the estimated savings lost from states not
performing required value engineering studies and from not achieving the
44.4 percent national average of recommendations approved.

ACTIONS REQUIRED
FHWA’s planned actions were responsive to our recommendations and we
commend FHWA for promptly initiating actions to address each of our
recommendations. However, the recommendations will be considered unresolved
until FHWA provides target dates for completed corrective actions. In accordance
with DOT Order 8000.1C, we would appreciate receiving, within 30 days,
estimated completion dates for all planned corrective actions.

We appreciate the cooperation and assistance provided by FHWA and Army
Corps of Engineers representatives during this audit. If you have any questions
concerning this report, please call me at (202) 366-5630, or Rebecca Anne Batts,
Deputy Assistant Inspector General for Surface and Maritime Programs, at
(202) 493-0331.

                                        #




                                        x
                               TABLE OF CONTENTS


FINDINGS .............................................................................................. 1
    States Need To Perform Value Engineering Studies In
    Order To Achieve Substantial Savings ............................................. 1
    States Are Not Implementing Many Value Engineering
    Recommendations, Missing Further Opportunities to
    Achieve Significant Savings .............................................................. 3
    FHWA Can Strengthen Its Oversight of State VE
    Programs........................................................................................... 6
    FHWA Needs To Disseminate States’ Best Practices for
    Value Engineering ............................................................................. 9

RECOMMENDATIONS........................................................................ 11
MANAGEMENT COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE................................................. 13

EXHIBIT A. OBJECTIVES, SCOPE, AND
METHODOLOGY................................................................................. 15
EXHIBIT B. ACTIVITIES CONTACTED OR VISITED........................ 20

EXHIBIT C. MAJOR CONTRIBUTORS TO THIS
REPORT .............................................................................................. 21
APPENDIX. MANAGEMENT COMMENTS........................................ 22
                                                                                   1



FINDINGS

States Need To Perform Value Engineering Studies In Order To
Achieve Substantial Savings
Section 303(b)(f)(1) of Public Law 104-59, the National Highway System
Designation Act of 1995, provides, “The Secretary shall establish a program to
require States to carry out a value engineering analysis for all projects on the
National Highway System with an estimated total cost of $25,000,000 or more.”
The 23 CFR 627.1(a) codified this provision requiring “the application of value
engineering to all Federal-aid highway projects on the National Highway System
with an estimated cost of $25 million or more.” Neither Federal law nor
regulations allow exceptions to these requirements. However, we found that value
engineering analyses are not being conducted in accordance with Federal
regulation and FHWA policy, Federal-aid funds are being expended on projects
with unrealized cost savings, and states are missing opportunities for substantial
savings.

While Some States Performed Required Value Engineering Analyses for
Projects Over $25 Million, Others Did Not
Our fieldwork concentrated on highway projects covering the period from
FY 2001 through FY 2004. Based on our analysis, using the 5-percent national
average, we estimated that the 10 states visited could have saved an additional
$117 million ($29 million annually) and reprogrammed these savings to other
qualifying Federal-aid projects by performing additional value engineering
studies.

As shown in Table 2 on the following page, the extent to which the 10 states in our
audit performed their required value engineering studies varied. To their credit,
from FY 2001 through FY 2004, 3 of the 10 states (Massachusetts, Washington,
and Wisconsin) performed all required value engineering studies.

However, we found that the remaining seven states we visited (California,
Connecticut, Michigan, New Jersey, North Carolina, Texas, and the District of
Columbia) did not perform many required value engineering studies. Of the
289 NHS projects in these seven states, 39 projects (or 13 percent) with a total cost
of $2.0 billion did not undergo the required value engineering studies, resulting in
lost opportunities to reprogram an estimated $98.4 million. Because it did not
effectively track the status of state value engineering efforts, FHWA was unaware
that most of the required studies were not performed.

We also identified nine Federal-aid projects (five in Texas, three in North
Carolina, and one in the District of Columbia), each with estimated costs


Findings
                                                                                                                 2


exceeding $25 million, that were not on the NHS and did not have value
engineering studies performed. With a total estimated cost of $379 million for
these nine Federal-aid projects, each of them could have been identified as having
a high potential for cost savings. Although value engineering studies were not
required for these non-NHS projects, we estimated that the three states lost the
opportunity to save an additional $19 million of the $379 million combined cost
by not performing value engineering studies on the nine projects.



                  Table 2. Value Engineering Studies Not Performed
                                (FY 2001—FY 2004)
                                                                              Non-NHS Projects With a
                          NHS Projects Above the $25 Million
                                                                               High Potential for Cost
                                     Threshold
                                                                                      Savings
                                       Number of           Estimated                          Estimated
  States Visited                                                            Number of
                                         NHS             Savings Lost                        Savings Lost
                        Number                                              Non-NHS
                                        Projects             by Not                             by Not
                        of NHS                                               Projects
                                        Without           Performing                         Performing
                        Projects                                             Without
                                       Required            the Study                          the Study
                                                                      *       Study
                                         Study           ($ millions)                       ($ in millions)
 California                102              11                 $26.5                     N/A
 Connecticut                10               2                  $3.3                     N/A
 District of
 Columbia
                              1                1                $1.4              1                    $1.7
 Massachusetts               6                        All required studies performed.
 Michigan                   18                1               $1.6                 N/A
 New Jersey                 11                1               $1.8                 N/A
 North Carolina             34                7              $27.6            3                       $6.0
 Texas                     113               16              $36.2            5                      $11.3
 Washington                 10                        All required studies performed.
 Wisconsin                   9                        All required studies performed.
 Total                    314                39               $98.4               9                  $19.0
 Source: FHWA generated list of Financial Management Information System projects estimated to cost $25 million
 or more.
 * See Scope and Methodology section of Exhibit A for information on how the estimates were
    calculated.

The use of value engineering programs varied widely across the states we
reviewed, as indicated in the examples below.

 • Texas DOT. Texas performed no value engineering studies on 16 applicable
   NHS projects collectively valued at $724 million. Using the 5-percent
   national average, we estimated potential lost savings of $36.2 million (a
   Federal share of approximately $29 million). The Texas Central DOT Office
   delegated responsibility for performing the value engineering studies to the



Findings
                                                                                                            3


         25 districts throughout the state, but did not follow up to ensure the districts
         performed the required studies.

     • California DOT. California performed no value engineering studies for 11
       applicable NHS projects, collectively valued at $529 million. Using the
       5-percent national average, we estimated potential lost savings of
       $26.5 million (a Federal share of approximately $21.2 million). California’s
       central DOT office delegated responsibility for performing value engineering
       studies to its 12 districts located throughout the state, but did not follow-up to
       ensure that districts performed the required studies.

     • North Carolina DOT. North Carolina did not perform required value
       engineering studies on seven projects, collectively valued at $551 million.
       Using the 5-percent national average, we estimated that North Carolina lost
       potential savings of $27.6 million (a Federal share of approximately
       $22 million). NCDOT explained that, for five of these seven projects, valued
       at $435 million, value engineering was not required because the projects
       were awarded through the design-build process. However, FHWA’s value
       engineering coordinator acknowledged that design-build projects are not
       exempt from undergoing value engineering studies.

         NCDOT established a Value Engineering Advisory Panel in March 1995 that
         planned to meet quarterly to review rejected recommendations. The
         Advisory Panel had the authority to concur with the rejection, approve the
         recommendation, or require modifications to the recommendation before
         approval. However, despite some interest among NCDOT personnel, the
         Advisory Panel has never met, and therefore has not provided the oversight it
         was established to perform.

States Are Not Implementing Many Value Engineering
Recommendations, Missing Further Opportunities to Achieve
Significant Savings
The 1995 Act and 23 CFR Section 627.1 emphasize the benefits of value
engineering “for reducing the total cost of the project and providing a project of
equal or better quality.” Public Law 104-59 and SAVE provide specific
requirements for conducting value engineering studies and for ensuring that
approved recommendations are incorporated into design plans.

Few States Achieved Established Industry Benchmarks
The TRB’s synthesis, Value Engineering Applications in Transportation,11
developed two metrics that can be compared to state DOT performance of value
11
     “Value Engineering Applications in Transportation,” NCHRP Synthesis 352, prepared by David C. Wilson, PE,
     CVS, Vice President NCE Limited, 2005.


Findings
                                                                                                                        4


engineering studies—percentage of savings of total project costs and percentage of
the number of approved recommendations (see Table 3 below.) The synthesis
allowed us to compare the states’ performance against the two established industry
benchmarks.

Of the 10 states we visited, 1 state (New Jersey) achieved project cost savings
exceeding the 10-percent industry benchmark and 3 states (New Jersey, Texas,
and Washington State) achieved the industry benchmark of approving 60 percent
or more of their recommendations. Nationally, for the period FY 2001 through
FY 2004, only 12 states achieved the industry benchmark by approving at least
60 percent of the value engineering recommendations. More states might have
been able to achieve the industry benchmark, but states face unique challenges that
private sector entities do not, such as the need to consider context sensitive
solutions,12 which may preclude approval of some cost savings recommendations.

              Table 3. Comparison of Industry Benchmarks to Federal-Aid
                           Value Engineering Performance
                                 (FY 2001-FY 2004)
                                                                 Industry                      Federal-Aid VE
Value Engineering Program Metric                                Benchmark                       Performance
                                                                 (Percent)                        (Percent)
Project Savings
 (value of approved recommendations/estimated                          10                                5
 capital cost of projects studied)
Acceptance of Value Engineering
Proposals                                                          60 to 80                            44.4
 (number of approved recommendations)
Source: TRB’s “Value Engineering Applications in Transportation,” NCHRP Synthesis 352, December 2005, except
the 44.4 percent, which was calculated by the OIG statistician.

Using FHWA data, we found that from FY 2001 through FY 2004, 28 states did
not approve the national Federal-aid performance average of 44.4 percent of
proposed value engineering recommendations. Had each of those states approved
additional recommendations to achieve the 44.4 percent rate, and if each of the
additional recommendations yielded the national average of $1.18 million in
savings per approved recommendation, an additional $789 million could have
been saved and reprogrammed to other qualifying Federal-aid projects.

Of the 10 states we visited, 5 (Connecticut, North Carolina, California, Michigan,
and Wisconsin), collectively approved 23 percent of the proposed
recommendations, as contrasted with the national approval average of 44.4 percent
for Federal-aid highway projects. We estimated that had those five states achieved
12
     Context sensitive solutions is a collaborative, interdisciplinary approach that requires all stakeholders to develop a
     transportation facility that fits its physical setting and preserves scenic, aesthetic, historic and environmental
     resources, while maintaining safety and mobility. For example, some value engineering recommendations may not
     be approved if they negatively impact historic or environmental resources at the project site.



Findings
                                                                                 5


the national average of 44.4 percent, an additional $381 million (a combined
Federal share of approximately $305 million) could have been reprogrammed to
other qualifying Federal-aid projects.

From FY 2001 through FY 2004, 23 other states that we did not visit did not
achieve the 44.4 percent national average. We estimated that if those 23 states had
achieved the national average, an additional $408 million (a combined Federal
share of approximately $326 million) could have been reprogrammed to other
qualifying Federal-aid projects.

Management at state departments of transportation and FHWA attributed the low
acceptance rate to:

   • the failure of state senior transportation managers to send a strong enough
     message to department staff on the benefits of value engineering,

   • states’ perception that value engineering causes unneeded project delays,
     and

   • studies being performed too late in the design process to approve and
     subsequently implement recommendations.

To determine how effectively states were assessing value engineering
recommendations, we evaluated the reasons for the rejection of value engineering
recommendations in Connecticut, Michigan, and North Carolina. These three
states had the lowest recommendation approval rates of the 10 states visited. For
example, during the 4-year period of FY 2001 through FY 2004, Connecticut and
North Carolina collectively approved only $3.1 million of a combined total of
$508 million of the proposed recommendations. Of the 10 states visited, with the
exception of the Massachusetts and Connecticut FHWA Division Offices, we
found no documentation showing that the FHWA Division Offices took exception
to or challenged the states’ explanations and decisions for rejecting the
recommendations, as appropriate. That is, independent FHWA review would
provide added assurance that states were prudent in rejecting recommendations.

As demonstrated in the following examples, additional independent review is
warranted:

   • North Carolina rejected all but $3 million of $203 million in recommended
     value engineering savings. Additionally, at our request, the Army Corps of
     Engineers (the Corps) reviewed and analyzed North Carolina’s value
     engineering program, including four value engineering studies. The Corps
     determined that documentation of engineering effort varied from report to



Findings
                                                                                  6


      report and the project designer’s review and determinations sometimes
      lacked content and quality.

      Though the VE recommendations were forwarded to the design teams for
      acceptance or rejection, there was no coordination after that point. The
      Corps found that NCDOT did not include support for cost estimates,
      including evaluating life-cycle cost alternatives. However, following our
      November 2004 visit, North Carolina improved its value engineering
      process and reported accepting 73 percent of value engineering
      recommendations in FY 2005.

   • Connecticut rejected all but $80,000 of $305 million in recommended value
     engineering savings. For FY 2005, Connecticut reported no value
     engineering activity at all.

      The Connecticut DOT value engineering studies did not always have
      complete or consistent documentation supporting recommendations for
      changes or reasons for rejecting suggested changes. The value engineering
      study of the Moses Wheeler Bridge illustrates two different ways in which
      the lack of complete documentation limited acceptance of value
      engineering recommendations.         For example, the study included a
      recommendation to use reinforced earth embankments in lieu of structural
      piers, for a savings of $10.6 million.              However, because the
      recommendation was not supported by a detailed cost estimate with a life-
      cycle cost analysis, Connecticut DOT rejected the recommendation, citing
      unrealistic cost savings. As part of the same study, Connecticut DOT
      rejected three recommendations relating to modification of the bridge, with
      estimated savings of $9.9 million. Although Connecticut DOT cited the
      reduction in vertical bridge clearances and the need for design exceptions as
      reasons to not implement the recommendations, we questioned the
      explanation, in part because it was incomplete. Further, we noted that the
      state had previously granted a design exception for vertical clearance in a
      similar situation.

FHWA Can Strengthen Its Oversight of State VE Programs

Analysis of FHWA Oversight Indicates Need for Increased Participation

In interviews with personnel from the states and FHWA Division Offices, we
found that the level of compliance with the Policy Guide varied from state to state.
Most Division Offices reported that they participated in value engineering studies,
but our audit showed that some offices demonstrated very little impact from their
efforts.    Further, FHWA Division Office personnel indicated that their
participation in state value engineering programs was limited because: (1) state


Findings
                                                                                 7


value engineering was viewed as a mature program not requiring oversight;
(2) limited FHWA resources required engineers to be assigned to other priorities,
such as reviewing project proposals and monitoring construction projects; (3) state
and FHWA management placed low emphasis on the value engineering program;
(4) FHWA value engineering coordinators served as resources for information, but
not as participants in state studies; and (5) one Division Office was not provided
sufficient lead time to attend value engineering meetings or to participate in
studies.

In addition to the Division Offices’ reported limitations, we identified four
additional factors that we believe hindered FHWA Division Office oversight of
value engineering in the states within their regions.

 • Division Offices did not ensure that states performed all required value
   engineering studies. For example, the Connecticut and Texas Division
   Offices granted waivers from the statutory requirement to perform value
   engineering studies, stating that the projects were already underway and that
   a similar project, such as resurfacing, had previously undergone a value
   engineering study.      FHWA incorrectly considered the new projects
   extensions of the ongoing projects, even though the new projects were
   initiated under new project agreements. Notably, FHWA policy does not
   waive the requirement for states to perform value engineering studies. If
   FHWA wants to consider approving waivers for routine tasks, such as
   repaving projects, a change will be required to Federal Regulations and
   FHWA’s policy.

 • FHWA value engineering coordinators reported their tenures to be too short
   and too multi-functional. During the 2 to 3 years that value engineering
   coordinators typically spend in their role, they may also be assigned other
   significant responsibilities. They interface with the state DOT and FHWA
   Headquarters by actively participating in value engineering studies and
   reconciling the studies performed with studies the states were reporting in
   their annual summary reports to FHWA Headquarters. Because the
   coordinators’ tenures are temporary, they do not have time to acquire
   sufficient knowledge and training to perform their oversight functions.
   Coordinators were required to interface with the state DOT and FHWA
   Headquarters by actively participating in value engineering studies, and
   reconciling the studies performed with studies the states were reporting in
   their annual summary reports to FHWA Headquarters. Our work and the
   Corps’ review corroborated the coordinators’ claim, as neither found
   evidence that the coordinators were sufficiently involved to provide adequate
   guidance and oversight.



Findings
                                                                                 8


 • FHWA discontinued its performance measures for value engineering, which
   hindered its ability to determine the program’s effectiveness, reveal problem
   areas, and implement improvements. After FY 2001, FHWA dropped from
   its performance plan the only value engineering performance goal of
   increasing the use of value engineering to achieve greater cost savings. As a
   result, only 2 of the 10 Division Offices we visited had value engineering
   performance goals in effect at the time of our visit. To their credit, in
   response to FHWA’s discontinuing their sole performance measure, the
   North Carolina and Texas Division Offices developed their own performance
   goals and measures. Of note, FHWA initiated a task force to improve the
   value engineering process and establish new value engineering performance
   measures.

Army Corps of Engineers’ Review was Consistent With Our Analysis
The Corps assessed FHWA’s oversight over the state value engineering process in
two states, North Carolina and Michigan, and identified weaknesses in the FHWA
policy. Specifically, the Corps concluded that FHWA policy:

 • does not require complete documentation of work performed in all phases of
   the value engineering study in the final value engineering study report.
   Industry standard is to create a thoroughly documented report to demonstrate
   that all value engineering study elements are covered and proper
   methodology is followed.

 • implies that early timing of a value engineering study in a project is optional.
   In contrast, the policy should require that value engineering studies be
   conducted between the 10 percent and 35 percent design completion stages,
   unless dictated otherwise by extenuating circumstances.

 • does not state that management needs to assure that value engineering
   proposals are given serious consideration by the design team and
   incorporated into designs as needed.

 • does not specify any necessary credentials for the value engineering study
   team leader, and implies that the value engineering training for that position
   is optional.

FHWA Has Not Assessed the Effectiveness of State Value Engineering
Program
Until the May 19, 2006 FIRE Program directive, FHWA did not have a system in
place to recognize the grants management oversight weaknesses we identified in
this report. In each of our annual Management Challenges Reports from 2003
through 2006, we pointed to the need for FHWA to make improvements in the


Findings
                                                                                                                      9


area of grants management. Additionally, the Highway Trust Fund financial
statement reports for 2004 and 2005 identified a material weakness in FHWA’s
grants management. As required in OMB Circular No. A-123, “Management’s
Responsibility for Internal Control,” agency managers should use audit results,
such as those detailed in this report, in annual assessments of agency internal
controls. The focus of internal control in the value engineering program is on the
effectiveness and efficiency of operations and compliance with the regulation to
complete required value engineering studies.

FHWA is in the process of implementing two processes to improve oversight of
grants management. In the FIRE Program, FHWA conducts annual assessments
of state management of Federal-aid funds. FHWA is also initiating a corporate
risk assessment process that will assess risk in all major aspects of the Federal-aid
program. As stated, value engineering is a key component of state management of
Federal funds because it provides states the opportunity to improve operations and
project quality and to reduce project costs by streamlining operations and
implementing cost saving recommendations. However, under the current policy,
FHWA is not required to assess value engineering in FIRE reviews or in the risk
assessments of states’ Federal-aid programs. FHWA should consider including in
the annual report to the Secretary, required by OMB Circular No. A-123, the
issues identified in this report.

FHWA Needs To Disseminate States’ Best Practices for Value
Engineering
We found that FHWA does not have any mechanism in place to identify best
practices related to value engineering or a means to recommend any best practices
to states. We used four key indicators13 and the corresponding metric to measure
the effectiveness of value engineering programs in the 10 states we visited. Our
assessment of 10 value engineering programs identified the following best
practices:
       • Washington State included top-level management and outside stakeholders
         in the value engineering process to consider all views.
       • New Jersey hosted annual training by the National Highway Institute for
         value engineering teams. In fostering the multi-disciplinary approach
         promoted by SAVE, New Jersey offered this training to engineers and non-
         engineers, which included conducting a value engineering study on an
         actual highway project.

13
     The four key indicators were: (1) completion of required studies—fulfilling a statutory requirement, (2) percentage
     of approved recommendations—exceeding the national average, (3) return on investment of the cost spent to perform
     value engineering studies—exceeding the national average, and (4) percentage of project savings—exceeding the
     national average.




Findings
                                                                                                  10


        • Massachusetts required written justification for value engineering
          recommendations that were not approved and for challenges to rejections of
          value engineering recommendations.
   By using best practices associated with performing VE studies, New Jersey
   achieved nearly 13.5 percent project cost savings, whereby the industry
   benchmark is 10 percent for savings as a percentage of total project costs.
   Massachusetts came close to achieving the benchmark, realizing more than
   9 percent in savings as a percentage of total project costs. Similarly, using best
   practices associated with implementing recommendations, Washington State
   approved 83 percent of recommendations and produced an annual return on
   investment averaging $523 in cost savings for every $1 spent on value engineering
   studies from FY 2001 through FY 2004. In contrast, nationally, states approved
   44.4 percent of recommendations and realized an annual return on investment
   averaging $128 for every $1 spent. The best practices that these states
   implemented enhanced their respective value engineering programs and merit
   wider dissemination to other states for adoption, where practicable.
   As shown in Table 4, states using best practices ranked higher overall in these
   indicators than states that had not adopted best practices. In the 10 states visited,
   Washington State ranked best in three of the four indicators. Other states using
   best practices and exceeding the national average in three of the four indicators
   were Massachusetts and New Jersey.
           Table 4. Comparison of States’ Performance in Key Indicators of
                         Value Engineering Effectiveness
                           Key Performance Indicators
                        States listed from highest to lowest
               Percentage of           Percentage of              Return on            Percentage of
              Required Studies           Approved                Investmentb          Project Savingsb
                Performed b          Recommendationsb
More      Massachusettsa            Washington                Washington            New Jersey
Effective Washingtona               New Jersey                Massachusetts         Massachusetts
          Wisconsina                Texas                     Texas                 California
          Michigan                  Massachusetts             New Jersey            Texas
          New Jersey                Wisconsin                 California            Washington
          California                California                Wisconsin             Wisconsin
          Texas                     Michigan                  North Carolina        Michigan
          Connecticut               Connecticut               Michigan              North Carolina
          North Carolina            North Carolina            Connecticut           Connecticut
Less      District of               District of               District of           District of
Effective Columbia                  Columbia                  Columbia              Columbia
Source: FHWA Annual Value Engineering Summary Reports, FY 2001 through FY 2004 and OIG site visits.
a
  These 3 states completed all required studies and are listed alphabetically.
b
  Bolded states indicate that they met statutory requirements or exceeded national averages.



   Findings
                                                                                11


States with the OIG-identified best practices tended to be more effective in the
metrics cited. Unlike Washington State, Massachusetts, and New Jersey, the
District of Columbia DOT does not have an active value engineering program and
as of November 2004, it had not performed any value engineering studies,
although one of its Federal highway projects required a value engineering study.

We recognize that additional best practices are being used in the states we did not
visit, and recommend that FHWA identify best practices among all the Division
Offices and issue the results to all Division Offices and state departments of
transportation.

RECOMMENDATIONS
We recommend that FHWA:

1. Revise its value engineering policy to:

   a. Require complete documentation of all value engineering study phases in
      the final value engineering report.

   b. Require that value engineering studies be conducted between the concept
      phase and 35 percent completion stage of the project design.

   c. Include management review guidelines to ensure that all value engineering
      recommendations are considered by the design team and incorporated into
      designs, as appropriate, and require responsible state management, (for
      example, the chief engineer) to sign off on the rejection of value
      engineering recommendations that contain substantial cost savings.

   d. Require full support of cost estimates including evaluation of different
      scenarios that offer the lowest life-cycle cost alternative.

   e. Require Division Office engineers to either monitor or participate in all
      state value engineering studies including Federal-aid projects, and ensure
      that all required studies are performed.

2. Develop performance goals for measuring the effectiveness of state value
   engineering programs and for evaluating Division Office personnel in fulfilling
   the FHWA and OMB requirements for value engineering programs.

3. Incorporate value engineering into either the FIRE reviews or the corporate
   risk assessment process to determine whether all required studies are
   performed and to assess the states’ consideration of recommendations with
   identified cost savings. Ensure that FHWA’s annual assurance statements that
   each Federal-aid Division Office is required to perform in support of FHWA's


Recommendations
                                                                               12


  annual certification of internal and financial controls to support the financial
  statements, as required by the Federal Managers’ Financial Integrity Act, are
  based on the results of the FIRE reviews and the corporate risk assessments.

4. Disseminate to the states known best practices for value engineering,
   including:

  • Performance metrics,

  • Annual value engineering training by the National Highway Institute or
    other vendors with similar expertise, and

  • Inclusion of states’ senior management and outside stakeholders in the
    value engineering process.




Recommendations
                                                                                 13




MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
On January 31, 2007, we provided FHWA a draft copy of this report. On
March 2, 2007, FHWA provided us its formal response, which is included in its
entirety in the Appendix. In its response, FHWA fully concurred with all of our
recommendations and provided planned corrective actions that will begin as early
as March 2007, which, collectively, meet the intent of all of our recommendations.
We commend FHWA for initiating prompt actions.                       However, the
recommendations will be considered unresolved until FHWA provides target dates
for completed corrective actions.

Recommendation 1. FHWA concurred with the recommendation to revise its
value engineering policy. Recognizing that additional proactive guidance and
oversight measures are needed in support of advancing current value engineering
practices of state and local agencies, in addition to revising Federal regulations,
FHWA plans to initiate the development of technical guidance and production of
outreach material in April 2007.

These revisions will be incorporated, as appropriate, into all future activities of
FHWA’s value engineering program. Also in April 2007, FHWA plans to initiate
the process to (1) modify the value engineering provisions contained in 23 CFR,
part 627 and (2) initiate the development of technical guidance and outreach
material.

OIG Response. FHWA’s planned actions meet the intent of our recommendation.

Recommendation 2. FHWA concurred with the recommendation to develop
performance goals for measuring the effectiveness of state value engineering
programs and goals for Division Office personnel in fulfilling the FHWA and
OMB requirements for value engineering programs. In May 2007, FHWA plans
to convene a working group to evaluate and establish performance goals and
measures to assess FHWA’s value engineering program.

This group would also be tasked to work with industry representatives to identify
changes in the report that annually assesses and reports on the progress of value
engineering programs of state departments of transportation and their completed
studies. This effort will focus on identifying changes that will be used in the data
collection and reporting conducted in FY 2007 on the progress that state
departments of transportation value engineering programs have achieved.

OIG Response. FHWA’s planned actions meet the intent of our recommendation.

Management Comments and Office of Inspector General Response
                                                                                14


Recommendation 3. FHWA concurred with the recommendation to incorporate
an assessment of state value engineering programs into its corporate risk
assessment to support the risk management assessments that are completed for
FY 2008, as well as to ensure that FHWA’s annual assurance statements that each
Federal-aid Division Office is required to perform, are based on the results of the
FIRE reviews and the corporate risk assessments. FHWA plans to incorporate
value engineering into FHWA’s corporate risk assessment process to support the
risk management assessments to be completed for 2008.

OIG Response: FHWA’s planned actions meet the intent of our recommendation.

Recommendation 4. FHWA concurred with the recommendation to disseminate
to the states known best practices for value engineering. Starting in March 2007,
FHWA plans to develop value engineering technical guidance, best practices, and
outreach materials.

OIG Response. FHWA’s planned actions meet the intent of our recommendation.




Management Comments and Office of Inspector General Response
                                                                                  15




EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY
Our objectives were to determine whether FHWA’s oversight is adequate to
ensure that: (1) value engineering studies are performed on all Federal-aid NHS
projects that have an estimated cost of $25 million or more, (2) value engineering
studies are performed on all Federal-aid projects that have a high potential for cost
savings, and (3) all value engineering recommendations that can be implemented
are approved, permitting the greatest degree of potential savings to be achieved.

To accomplish our objectives, we met with the FHWA value engineering
coordinator in Washington, D.C., to assess the role of FHWA Headquarters in the
FHWA Value Engineering Program, and we administered to all 52 Division
Offices (50 states, the District of Columbia, and Puerto Rico) a questionnaire on
the role of the FHWA Division Offices in the value engineering programs and
analyzed the results. Additionally, to better understand why states were not
approving significant value engineering recommendations, we evaluated the
reasons for their rejection in 3 of the 10 states we visited (North Carolina,
Michigan, and Connecticut).

We discussed questionnaire responses with FHWA Division personnel and the
roles and responsibilities in the value engineering process with FHWA Division
and state personnel (for example, Washington State DOT), including initiatives for
approving all recommendations that can be implemented. We also analyzed data
that FHWA collects from states or Division Offices to compile its Annual Federal-
aid Value Engineering Summary Reports.

To corroborate the questionnaire responses and assess value engineering
performance, we selected for review 10 states and their respective Division
Offices because they: (1) did not report any value engineering studies during
FY 2002 (District of Columbia and Massachusetts), (2) approved a low percentage
of their value engineering recommendations from FY 2001 through FY 2004
(North Carolina, Connecticut, Michigan, and Wisconsin), (3) approved a high
percentage of their value engineering recommendations from FY 2001 through
FY 2004 (New Jersey and Washington State), or (4) received large amounts of
Federal-aid dollars (California and Texas).

At the OIG’s request, FHWA provided OIG with Fiscal Management Information
System (FMIS) computer runs that listed all Federal-aid projects underway
between FY 2001 through FY 2004 that had estimated costs of $25 million or
more. These lists included NHS and non-NHS projects. When we visited the
10 states, we had state DOT personnel identify which Federal-aid projects were
NHS and which were non-NHS. From the FMIS lists, state DOT personnel
identified 323 Federal-aid projects in the 10 states from FY 2001 through


Exhibit A. Objectives, Scope, and Methodology
                                                                                 16


FY 2004, estimated to cost $25 million or more. Of these 323 projects, 314 were
identified as NHS projects. We worked with state DOT personnel to determine
whether required value engineering studies were performed on each of the
314 projects. In addition, nine Federal-aid projects with estimated costs greater
than $25 million were identified that were not on the NHS and that had not
undergone a value engineering study. We then asked why the projects had not
undergone a value engineering study. Because of the high-dollar amount of the
nine projects, we believe they would have had a high potential for cost savings.
Consequently, we judgmentally determined to expand our audit universe by
including in our review the nine non-NHS Federal-aid projects.

Finally, to better understand why states were not approving significant value
engineering recommendations, we evaluated the reasons for their rejection in three
of the states visited with the lowest recommendation approval rates (North
Carolina, Michigan, and Connecticut). Specifically, we assessed the merit and
supporting documentation of the proposed recommendations and judged the
technical sufficiency of the states’ rationale for not approving the
recommendations.

We analyzed responses to the questionnaire from the Division Offices and
interviewed Division Office and state department of transportation personnel to
assess their respective roles and responsibilities. We also determined whether
states performed all required value engineering studies by reconciling FHWA’s
FY 2001 through FY 2004 FMIS and cost data to state records, and determined
whether states reported the correct number of value engineering studies and
recommendations. We conducted separate interviews with state department of
transportation and FHWA Division Office personnel to evaluate their respective
processes and responsibilities for their value engineering programs. At the end of
each site visit, we discussed our preliminary results with the responsible state and
FHWA Division Office personnel.

We also reviewed FHWA and state value engineering policy and procedures to
determine whether FHWA Divisions participated in and oversaw the states’ value
engineering programs. We reviewed the content of the states’ value engineering
studies and recommendations, and obtained any written justification for the states
not approving value engineering recommendations covering the period from
FY 2001 through FY 2004. We assessed the adequacy of FHWA’s policy and
procedures and included such tests as were considered necessary to provide a
reasonable assurance of detecting abuse or illegal acts.

To estimate the potential lost savings that resulted from state departments of
transportation not performing required value engineering studies or from studies
that did not achieve the national average of recommendations accepted, we used
the OIG calculated percentages that are comparable to national averages published

Exhibit A. Objectives, Scope, and Methodology
                                                                                                                  17


in the TRB Synthesis 352, Value Engineering Applications in Transportation. We
independently calculated the percentage savings using data from the state
departments of transportation for FY 2001 through FY 2004—our calculations
were consistent with the TRB’s percentages. The TRB study included figures on
historical Federal-aid value engineering performance and industry benchmarks.
We used the cited metrics in our report of project savings14 (5 percent) and the
acceptance rate of value engineering recommendations (44.4 percent)15 as a
baseline for evaluating the projects we reviewed for this audit. For projects on
which no value engineering study was performed, but should have been, we used
the 5-percent project savings metric to estimate how much the state could have
saved, had the study been conducted. Similarly, for projects on which a value
engineering study was performed, we used the OIG-calculated 44.4-percent rate of
value engineering recommendation approval metric to compare and estimate the
additional potential savings. The OIG Statistician also computed the national
average savings of $1.18 million per approved recommendation.

To present a conservative estimate of savings lost by not implementing
recommendations, we used the OIG-calculated 44.4 percent average, instead of the
higher industry benchmarks of from 60 percent to 80 percent cited in the TRB
study. For states that approved less than 44.4 percent, we computed the number of
recommendations that should have been approved to achieve the 44.4 percent. We
credited the states for the number they did approve by subtracting them from the
number they should have approved (based on 44.4 percent). The remainder,
which was the number lost, was multiplied by $1.18 million (the national average
savings per approved recommendation) to arrive at the estimated lost savings for
each state.

The scope of our audit included reviewing the FHWA value engineering policy,
regulations and legislation and FHWA’s value engineering activity during the
period FY 2001 through FY 2004, for all 52 Division Offices. With respect to the
10 states visited, the scope further included reviewing FMIS reports and Federal-
aid NHS projects active during the period FY 2001 through FY 2004, with
estimated costs exceeding $25 million; the states’ value engineering standard
procedures and policies; and FHWA’s oversight of the states’ value engineering
programs.

Under the direction of the OIG Engineer Advisor, we engaged the assistance of the
Corps to review and assess the appropriateness and adequacy of North Carolina
and Michigan’s value engineering programs, processes, and studies and their
14
     The project savings metric is based on the value of the approved value engineering recommendations divided by the
     estimated capital cost of the project.
15
     The acceptance rate of value engineering recommendations metric is based on the number of recommendations
     approved for implementation divided by the total number of recommendations put forward by the value engineering
     study.



Exhibit A. Objectives, Scope, and Methodology
                                                                                 18


compliance with FHWA policy. These states were selected because they had
approved a low percentage of recommendations. Under this scope, the Corps:

   • reviewed the FHWA value engineering policy;
   • reviewed the state value engineering standard procedures and policy;
   • reviewed four North Carolina and seven Michigan value engineering
     studies to evaluate the:
        o application of FHWA policy,
        o application of standard value engineering principles and procedures,
        o justifications for acceptance or rejection of value engineering
            recommendations, and
        o timeliness of the studies; and
   • reviewed FHWA oversight of the state value engineering programs.

Our audit work included contacts with FHWA Headquarters, FHWA Division
Offices and state departments of transportation, the American Association of State
Highway and Transportation Officials, and the Corps.

We conducted this performance audit from October 2004 through March 2007, in
accordance with Generally Accepted Government Auditing Standards prescribed
by the Comptroller General of the United States, with one exception, standard
7.57, Data Gathered by Management. We did not independently verify the
reliability of the data reported in FHWA’s Annual Federal-aid Value Engineering
Summary Reports, which formed the basis for our estimates of potential savings.
However, the data are used by FHWA to report to the Secretary and OMB and
used in research performed by the TRB. The data are the only nationwide data
available that contains the value and number of reported and accepted value
engineering recommendations.

Our audit findings are based on evidence we gathered during our fieldwork in the
states and FHWA Division Offices, as well as work conducted by the Corps. We
used the data in FHWA’s Annual Federal-aid Value Engineering Summary
Reports to quantify the estimated monetary impact of our findings.

Preliminary analysis of the data that states submitted to FHWA (and reported in
FHWA’s Annual Federal-aid Value Engineering Summary Reports) disclosed
reporting inconsistencies among the states that affected the precision of our
estimates of potential savings. It was not practicable for us to quantify the effect
of these issues on our estimate; however, we performed alternative procedures to
determine the usefulness of our estimates in illustrating the potential monetary
benefits of the increased use of value engineering studies and the increased
implementation of value engineering recommendations. For example, we


Exhibit A. Objectives, Scope, and Methodology
                                                                            19


compared our 4-year results to the results reported by TRB and found them to be
comparable.




Exhibit A. Objectives, Scope, and Methodology
                                                            20




EXHIBIT B. ACTIVITIES CONTACTED OR VISITED

American Association of State Highway Transportation Officials
Office
  Washington, DC

American Association of State Highway Transportation Officials
Value Engineering Conference
  San Antonio, Texas

Federal Highway Administration
  Washington, DC

Federal Highway Administration Division and State
Transportation Department Offices
  California
  Connecticut
  District of Columbia
  Massachusetts
  Michigan
  New Jersey
  North Carolina
  Texas
  Washington State
  Wisconsin

U.S. Army Corps of Engineers




Exhibit B. Activities Contacted or Visited
                                                        21



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT

The following individuals contributed to this report.


   Name                                    Title

   Michael Ralph                    Program Director

   Patrick Conley                   Senior Auditor

   Frank Schutz                     Senior Auditor

   Tyler Apffel                     Senior Auditor

   Rodolfo Pérez                    Engineer Advisor

   Aron Wedekind                    Engineer

   Petra Swartzlander               Statistician

   Harriet Lambert                  Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                                                    22


           U.S.Deportment
           of Transportation
           Federal Highway
                                                                 Memorandum
           Administration




Subject:     INFORMATION: Federal Highway Administration (FHWA)
             Response to Office of Inspector General (OIG) Draft Audit                     Date March 2, 2007
             ~ e ~ i r"Value
                       t,    ~ n ~ i n e e rin  ~ederal- id
                                             i nthe
                                                 ~         Highway Program"

From:        J. Richard Capka                                                             Reply to
             Administrator                                                                Attn. of:   HIPA- 1
To:          Calvin L. Scovel I11
             Inspector General (JA-40)

             Thank you for the opportunity to review and comment on the OIG Draft Report, "Value
             Engineering in the Federal-Aid Highway Program." We concur with the recommendations and
             plan to implement them as described herein. FHWA is committed to continue promoting the
             importance of and need to improve value engineering practices nationally. We will continue to
             collaborate and partner with industry to advance our collective practices to ensure value
             engineering is being applied to improve the quality, cost-effectiveness, and productivity
             associated with developing improvement projects on the surface transportation.

             Following are our comments and planned actions on the specific audit report recommendations.

             Recommendation 1: "Revise its value engineering policy to:
             a. Require complete documentation of all value engineering study phases in the final value
                engineering report.

             b. Require that value engineering studies be conducted between the concept phase and 35
                percent completion stage of the project design, recommending that conducting studies early
                in the process is preferable.

             c. Include management review guidelines to ensure that all value engineering recommendations
                are considered by the design team and incorporated into designs, as appropriate; and require
                responsible state management, (e.g., the chief engineer) to sign off on the rejection of value
                engineering recommendations that contain substantial cost savings.

             d. Require fully supported cost estimates and the evaluation life cycle cost alternatives.

             e. Require Division Office engineers to either monitor or participate in all state value engineering
                studies involving Federal-aid projects, and ensure that all required studies are performed."

              MQYfHG THE
             AMERICAN
             ECONOMY



            APPENDIX: Management Comments
                                                                                                      23




Response: We concur with these recommendations. These comments will be incorporated as
appropriate into all future activities of the FHWA's Value Engineering program. The FHWA
recognizes that additional proactive guidance and oversight measures are needed in support of
advancing current value engineering practices of State and local agencies. These value
engineering activities will include revising Federal regulations, updating FHWA policy,
developing technical guidance, updating training materials, and producing outreach material.

Accordingly, we will initiate the process in April of 2007 to modify the value engineering
provisions contained in the Code of Federal Regulations (23 C.F.R. Part 627) to reflect the changes
in Federal law reflecting the congressional intent and policy direction provided in the Safe,
Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU),
P.L. 109-59. Upon issuance of this final rule, we will also complete an update of FHWA's value
engineering policy contained in FHWA's Federal-Aid Policy Guide to reflect these changes in
Federal law and regulations. Outreach will be conducted through our Division Offices to their
State partners. The outreach includes raising their awareness and assisting with implementing
these changes into current practices of State and local agencies.

The FHWA recognizes the need to develop value engineering technical guidance and outreach
material. Accordingly, we will initiate the development of technical guidance and outreach
materials in April 2007. We will work with industry in developing and promoting these
resources to advance value engineering practices nationwide. These products will focus on
integrating and supporting value engineering within each agency, along with advancing the
application of value engineering on individual surface transportation improvement projects.

Specifically, these activities will include previously identified revisions to 23 C.F.R. Part 627,
updating FHWA's policy, and developing technical guidance and outreach material to:

l(a). Clarify the information to be contained in the final report documenting the results of value
      engineering studies. While FHWA's Federal-Aid Policy Guide requires complete
      documentation of all value engineering study phases in the final value engineering report,
      we will explore clarifying what additional information should be included in this report.

l(b). Clarify opportunities of when value engineering studies should be performed in the process
      of planning and developing surface transportation improvement projects.

l(c). Provide a framework State and local agencies could use to improve how they consider and
      approve value engineering recommendations. The FHWA's Federal-Aid Policy Guide
      identifies only the need for management guidelines and reviews to be performed to ensure
      value engineering recommendations are incorporated into the development of projects.

l(d). Encourage the use of life-cycle costs to improve the cost estimating that is performed on
      value engineering studies.

l(e). Enhance FHWA's stewardship and oversight of State DOTS value engineering programs
      and ensure VE studies are performed on required improvement projects.



APPENDIX: Management Comments
                                                                                                       24




Recommendation 2: "Develop performance goals for measuring the effectiveness of state value
engineering programs and goals for Division Office personnel in hlfilling the FHWA and OMB
requirements for value engineering programs."

Response: We concur with this recommendation. FHWA will convene a working group in May
2007 consisting of representatives from the FHWA Division Offices, Resource Center, and the
Office of Program Administration, to evaluate and establish performance goals and measures to
assess FHWA's Value Engineering Program. This group will also be tasked to work with
industry representatives to identify changes in the report that annually assesses and reports on the
progress of State DOT'S value engineering programs and their completed studies. This effort
will focus on identifying changes that will be used in the data collection and reporting that will
be conducted in FY 2007 on the progress achieved by State DOTS value engineering programs.

Recommendation 3: "Incorporate value engineering into either the FIRE reviews or the
corporate risk assessment process to determine whether all required studies are performed and to
assess the states' consideration of recommendations with identified cost savings. Ensure that
FHWA's annual assurance statements, required by FMFIA and the Office of Management and
Budget Circular A-123 are based on the results of the FIRE reviews and the corporate risk
assessments."

Response: We concur with this recommendation. Value engineering will be incorporated into
FHWA's corporate risk assessment process to support the risk management assessments that are
completed for 2008. The FHWA does not consider the Financial Integrity Review and
Evaluation (FIRE) Program process to be suitable for monitoring, reporting, or assessing value
engineering practices. This is based on the limited ability for a State DOT or FHWA's financial
accounting system to track or identify changes in a projects construction cost estimate that may
result from implementing value engineering study recommendations.

Recommendation 4: "Disseminate to the states known best practices for value engineering,
including:
a. Performance Metrics,

b. Annual value engineering training by the National Highway Institute, or other vendors with
   similar expertise, and

c. Inclusion of states' senior management and outside stakeholders in the value engineering
   process."

Response: We concur with these recommendations. FHWA recognizes the need to develop and
distribute value engineering technical guidance, best practices, and outreach material. As
previously identified, we will initiate the development of these resources in March 2007. These
resources will include a focus on the need for and importance of performance metrics, available
training resources, inclusion of agency management and stakeholders in sustaining a successhl
value engineering program, and in conducting specific value engineering studies.




APPENDIX: Management Comments
                                                                                                      25




In closing, we would like to emphasize that FHWA's role is to provide general program
stewardship and oversight of State DOT's value engineering programs and specific studies. Our
role is not to carry out, participate in, require the use of, or approve recommendations identified
in every value engineering study. Rather, it is our stewardship and oversight of State DOT's
value engineering policies, program, procedures, and approach where we continuously
encourage improvements, which is consistent with the direction of FHWA Federal-aid highway
program oversight responsibilities set by Congress in current legislation, balanced against our
available resources.

The efforts of the OIG auditors to further improve the value engineering programs and practices
of public agencies nationally are greatly appreciated. If you have any questions or comments
regarding this response, please contact Mr. Jon Obenberger at (202) 366-2221.




APPENDIX: Management Comments
